nm
I

@OCKLE

. E-Mail Address:
Le ga 1 Br 1é fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-1180

ROBERT RADCLIFFE, ET AL.,
Petitioners,
v.
EXPERIAN INFORMATION SOLUTIONS, INC., ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the OPPOSITION TO PETITION
FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 9000 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 5th day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NOTARY-State of Hebraska 2. Dy)
ty Cone ace is Keres. 0 . GOL? Quidran- he Gh

Notary Public Affiant

 
